January 19, 2010

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT: Audit Report – Capital District Financial Risk Audit
         (Report Number FF-AR-10-075)

This report presents the results of our audit of high-risk financial transactions in the
Capital District (Project Number 09BD021FF000). The objectives of our audit were to
determine whether high-risk transactions such as refunds, local disbursements,
miscellaneous expenses, and employee items were supported and made in accordance
with U.S. Postal Service policies; and whether cash and stamp accountability were
within authorized limits. The audit was self-initiated and addresses financial risk based
on factors evaluated by the U.S. Postal Service Office of Inspector General (OIG)
Performance and Results Information System (PARIS) models. See Appendix A for
additional information about this audit.

Conclusion

Based on items we reviewed, high-risk financial transactions such as refunds,
miscellaneous expenses, and employee items were not always supported and made in
accordance with policies. In addition, cash and stamp accountabilities were not within
authorized limits. Also, money orders, contract postal unit (CPU), and master trust
accounts were not always managed in accordance with policy. We identified similar
issues at four randomly selected Capital District sites audited in support of the opinion
on the U.S. Postal Service’s financial statements during the past 3 years. An April 2008
Financial Control and Support (FCS) review at one unit identified issues with financial
differences, employee items, and cash retained,1 which we also identified in this report.

Policies Were Not Followed For High-Risk Financial Transactions, Cash, Stamp,
and Money Order Accountabilities, CPU, and Master Trust Accounts

We found high-risk transactions such as refunds, miscellaneous expenses, and
employee items were not always supported and made in accordance with policy.2
Specifically, we found units did not always:

        Properly process refunds or complete Postal Service (PS) Form 3533,
         Application for Refund of Fees, Products and Withdrawal of Customer Accounts,
1
  Cash retained includes cash retained by retail associates and the custodian of the unit cash reserve.
2
  Key controls consistent with the criteria developed for evaluating Sarbanes-Oxley Act of 2002 compliance include
authorization of disbursements; reconciling financial differences; monitoring trust and suspense items pertaining to
employees; oversight of CPUs ; and reconciling master trust account balances. Another control is assessing cash,
stamp, and money order accountabilities.
Capital District Financial Risk Audit                                                     FF-AR-10-075



        or certify PS Forms 3533 for the destruction of postage affixed to business reply
        mail (BRM) or meter stamps to prevent reuse.

       Consistently monitor and resolve financial differences in miscellaneous
        expenses.

       Monitor and clear employee items.

We also found that units did not properly manage cash, stamp, and money order
accountabilities or customer accounts. Specifically, units did not always:

       Maintain cash retained and total office and retail floor stamp stock
        accountabilities within the authorized limits.

      Account for money orders.

      Obtain PS Forms 1412, Daily Financial Report, from one CPU.

      Reconcile master trust accounts.

See Appendix B for our detailed analysis of the findings. Appendix C presents a
summary of the accountability examinations.

District officials stated that the root cause of these issues was management instability
resulting from detailing untrained employees to supervisory positions in the units and
the difficulty in filling the positions with willing and qualified personnel. We believe that
these conditions are also attributable to insufficient management oversight of financial
operations by postmasters, station managers, and managers of post office (PO)
operations.

The issues identified could indicate similar situations at other units within the Capital
District based on prior audit results. Specifically, we reported similar issues in audits we
conducted in fiscal year (FY) 2009 at two units.3 In addition, at three other units audited
during the last 3 years, we reported several similar internal control issues.4 As a result,
there is increased risk that financial records could be misstated; or cash, accountable
items, and other sensitive items could be lost or stolen without detection. We identified
$20,434 in monetary and $602,795 in non-monetary impacts. See Appendix D for
details of the monetary and non-monetary impacts.




3
 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
4
 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxx.


                                                   2
Capital District Financial Risk Audit                                                                  FF-AR-10-075



We recommend the vice president, Capital Metro Area Operations, direct the manager,
Capital District, to:

1. Provide financial training to supervisory employees within 1 year of assignment in
   Post Offices.

2. Establish a system to monitor compliance with financial procedures by the units’
   management and enforce accountability.

3. Reinforce financial accountability oversight responsibility of postmasters and district
   post office operations management.

4. Develop and implement an action plan with milestones to address the internal
   control deficiencies identified in Appendix B of this report.

Management’s Comments

Management agreed with our findings and recommendations. The Capital District
started financial training for all supervisory personnel and plans to complete the training
by the end of Quarter 2, FY 2010. In addition, the district finance office established a
system to monitor compliance with financial procedures by unit management. This
includes providing weekly reports to units, reviewing supporting documents, training
postmasters to use the Enterprise Data Warehouse (EDW), following up on outstanding
items, and daily teleconferencing on the status of stamp stock. Further, the district
manager now reinforces financial accountability oversight responsibility during daily
teleconferences with his leadership team. The daily teleconferences include
discussions of key control deficiencies and units not in compliance. Finally, the district
completed corrective action for all deficiencies identified in Appendix B as of
December 28, 2009. As mandated by the Capital Metro Area, the district finance office
will conduct a follow-up review at the units in 90 days. See Appendix E for
management’s comments in their entirety.

Excess Stamp Stock at xxxxxxxxxxxxxxxxxxxxx Window Carries Increased Risk

We found that the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx acted as a receiving unit for
excess stamp stock transferred from other units in Washington, DC. This condition
occurred after the district, with the concurrence of area office, xxxxxxxxxxxxxxxxxxxxx,
xxxxxxxxxxxx, to designate this unit as a receiving unit. xxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxx this condition occurred because the stamp services center (SSC)5 that services
four districts in the metropolitan Washington, DC, area did not accept saleable stamps.
As a result, the high level of excess stamp stock at the receiving unit carries increased
risk of loss or misappropriation of accountable items. We identified $1,120,841 of non-
monetary impact.



5
    SSC is a postal center that supplies stamps and money order stock to postal retail units (PRUs).


                                                            3
Capital District Financial Risk Audit                                            FF-AR-10-075



See Appendix B for our detailed analysis of the finding and Appendix D for non-
monetary impact.

We recommend the vice president, Capital Metro Area Operations, direct the manager,
Capital District, to:

5. Consult with applicable headquarters personnel to develop criteria for the stamp
   stock receiving units, including duration, limit, security, and accountability of stamp
   stock.

6. Reduce the stamp stock to authorized limits in all units.

Management’s Comments

Management agreed with our finding and recommendations. Although Capital Metro
Area management did not agree with the Capital District directly consulting with
headquarters personnel, district management did consult with headquarters officials in
Accounting Policy, Asset Management, and SSC in 2009 and will continue consulting
with them.

The area implemented the Stamp Stock Reduction Plan in August 2009. The plan,
which contains the criteria for stamp stock shipments, reduced stamp stock by
approximately $15 million, with the Capital District reducing stamp stock by $5.6 million.
In addition, the Postal Service designated the district as a stamp destruction site from
November 2009 through February 2010 due to renovations in the SSC. As a result, the
stamp stock at the Washington MOW has been reduced to the authorized limit as of
December 28, 2009.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the recommendations,
and management’s corrective actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, director, Field
Financial - Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments


                                             4
Capital District Financial Risk Audit       FF-AR-10-075




cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Steven A. Darragh
    Henry L. Dix
    Stephen J, Nickerson
    Steven R. Phelps
    Kathi R. Washington
    Sally K. Haring




                                        5
Capital District Financial Risk Audit                                                                   FF-AR-10-075



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

POs are the initial level where the Postal Service recognizes revenue from operations.
The postmasters or installation heads are responsible for collecting all receipts to which
the offices are entitled, accounting for all funds entrusted to them, and ensuring the
offices meet all accounting objectives.

The Capital District is in the Capital Metro Area and includes 223 PRUs with Point-of-
Service (POS) system and Integrated Retail Terminal reporting technology. The district
reported approximately $672.4 million of revenue in FY 2008, $2.9 million of which was
reported by the three units we audited.6

The OIG performs periodic financial risk assessments. Based on financial data in the
EDW, the OIG developed a PARIS Cost and Controls Model that ranks the Postal
Service’s 74 districts with respect to specific financial risk indicators.7 We selected the
Capital District because our model suggested the district was a high financial risk
compared with other districts. In May 2009, data ranked the Capital District as the 12th
highest risk district.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether:

        Judgmentally selected high-risk transactions such as refunds, local
         disbursements, miscellaneous expenses, and employee items were supported
         and made in accordance with Postal Service policies.

        Cash and stamp accountability were within authorized limits.

To accomplish our objectives, we audited the following three judgmentally selected units
in the Capital District:

        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxx

We selected these sites for audit based on risk indicators for refunds, local
disbursements, miscellaneous expenses, employee items, and stamp stock levels. At
each unit, we relied on data obtained from the Postal Service’s EDW for the period

6
  In FY 2009, the district reported approximately $607.5 million of revenue, $2.6 million of which was reported by the
three units.
7
  The risk indicators include the following: revenue, local expenses, refunds, miscellaneous expenses, non-local
purchases, clerk cash, office cash, employee items, customer account management (master trust), segmented
inventory accountability compliance, stamp stock management, and CPU management.


                                                           6
Capital District Financial Risk Audit                                                                        FF-AR-10-075



June 1, 2008, through May 31, 2009, and performed transaction tests for judgmentally
selected refunds, local expenses/disbursements, miscellaneous expenses, employee
items, cash and stamp accountability. We reviewed master trust at two of three sites.8
In addition, we reviewed a CPU at one of three units.9 We traced recorded financial
transactions to and from supporting documentation and assessed the reliability of
computerized data by verifying the computer records to source documents. Further, we
used Postal Service instructions, manuals, policies and procedures as criteria to
evaluate internal controls and data reliability. We evaluated financial transactions for
validity and propriety and the units’ controls over safeguarding of assets. Finally, we
interviewed district officials and managers, supervisors, and employees at the units and
observed units’ operations.

We conducted the performance audit from August 2009 through January 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on November 24, 2009, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG issued seven audit reports, including six financial audit reports, for the Capital
District within the past 3 years.10

                                                   Report               Final           Monetary         Non-Monetary
                 Report Title                      Number            Report Date         Impact             Impact
    Fiscal Year 2007 Financial
    Installation Audit - xxxxxxxxxxxxxx         FF-AR-07-091            2/12/2007                 $0             $17,771
    xxxxxxxxxxxxxxxxxxxxx
    Fiscal Year 2007 Financial
    Installation Audit - xxxxxxxxx              FF-AR-07-110              3/5/2007                $0            $250,312
    xxxxxxxxxxxxxxxxxxxxxxxx
    Review of the Postal
    Services Refund Process - Capital          DR-AR-07-011             7/13/2007         $180,619              $531,784
    Metro Area
    Fiscal Year 2007 Financial
    Installation Audit - SmartPay
    Purchase Card Program for Local             FF-AR-07-251            9/27/2007          $93,938                       $0
    Buying (purchase card) - Capital
    District, Washington, DC


8
  We reviewed master trust at the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
9
  We reviewed a CPU hosted by the xxxxxxxxxxxxxxx
10
   Four of these audits were financial installation audits at statistically selected sites conducted in support of the
opinion on the financial statements; two were judgmentally selected.


                                                             7
Capital District Financial Risk Audit                                                            FF-AR-10-075




                                                         Report          Final      Monetary   Non-Monetary
              Report Title                               Number       Report Date    Impact       Impact
 Fiscal Year 2008 Financial
 Installation Audit - xxxxxxxxxxxxx
                                                   FF-AR-08-216         6/25/2008         $0        $27,255
 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 xx
 Fiscal Year 2009 Financial
 Installation Audit - xxxxxxxxxxxxxx               FF-AR-09-185         6/18/2009     $8,557      $1,828,051
 xxxxxxxxxxxxxxxxxxxxxx
 Fiscal Year 2009 Financial
 Installation Audit - xxxxxxx                      FF-AR-09-202         7/27/2009    $27,078             $0
 xxxxxxxxxxxxxxxxxxxxxxxxxxxxx


The financial audit reports identified internal control and compliance issues related to
cash and stamp stock accountability, money orders, financial accounting and reporting,
and SmartPay® Card. The reports made recommendations to address these issues,
and management concurred with the findings and agreed to take corrective actions.
The performance report on the refund process in the Capital Metro Area11 identified
issues related to processing and recording refunds of stamps, fees, retail services, and
Express Mail® Services. Management agreed with the findings and stated that
corrective actions were initiated. This audit report identifies a repeat condition relating
to incomplete PS Forms 3533.




11
     Capital District also was included in this audit.


                                                                  8
Capital District Financial Risk Audit                                                                FF-AR-10-075



                                APPENDIX B: DETAILED ANALYSIS

Policies Were Not Followed For High-Risk Financial Transactions, Cash, Stamp,
and Money Order Accountabilities, CPU, and Master Trust Accounts

High Risk Financial Transactions

Based on items we reviewed, high-risk financial transactions such as refunds,
miscellaneous expenses, and employee items were not always supported and made in
accordance with policies.

Refunds

Refunds were not supported, processed, or certified adequately for destruction at the
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Postal Service policy requires units to complete,
certify, and witness PS Form 3533 for all refunds, and to keep a copy of the form and
supporting documentation on file.12 The postmaster at the xxxxxxxxxxxx and acting
supervisor at xxxxxxxxxxxxxx stated they relied on the closeout employee to verify all
supporting documentation.

        xxxxxxxxxxxx officials could not provide us with supporting documentation for
         seven refund transactions totaling $171 of $988 reviewed.

        The xxxxxxxxxxxxxx did not always properly process refunds or complete PS
         Form 3533 for refund transactions. Specifically,

          The unit paid for a $2,200 refund of miscellaneous nonpostal revenue using a
           no-fee money order instead of processing it through the Scanning and Imaging
           Center (SIC).13 Additionally, the unit did not complete and approve the
           associated PS Form 3533. The refund was processed after a U.S. Postal
           Inspection Service investigation for lost money found in the mail that was
           claimed by a customer. Postal Service policy states employees must
           complete and certify PS Form 3533 for all refunds of miscellaneous nonpostal
           revenue. In addition, refunds for more than $500 are to be sent to the SIC.14
           Management stated the Postal Inspection Service instructed them to pay with
           no-fee money orders. A July 2007 audit of the refund process identified the
           same issue.

          The unit did not certify 95 PS Forms 3533 totaling $173,522 for the destruction
           of postage affixed to BRM or meter stamps to prevent reuse. Postal Service
           policy requires a supervisor and a witness to certify the destruction and sign in
           part 3 of PS Form 3533.15 The manager, Customer Service Operations,
12
   Handbook F-101 (F-101), Field Accounting Procedures , Sections 21-1 and 5-4.2.
13
   Units send disbursement documents to a centralized postal center called the SIC. The SIC scans, indexes, and
electronically transmits payment documents to the appropriate accounting services location for final processing.
14
   F-101, Sections F-21-1.2 and 21-3.
15
   F-101, Section 21-2.2.


                                                         9
Capital District Financial Risk Audit                                                               FF-AR-10-075



            stated she was unaware of the requirement to certify destruction of postage
            affixed BRM or meter stamps on PS Form 3533. When unit employees do not
            process refunds and disbursements in accordance with policy, the risk of loss
            of funds is increased.

Miscellaneous Expenses

All three units did not always follow procedures for financial differences. We found that
the units did not consistently monitor and resolve financial differences totaling $14,043
in Account Identifier Code (AIC) 247, Financial Differences Overage, and AIC 647,
Financial Differences Shortage. Postal Service policy states unit management is
required to research and resolve financial differences.16

      At the xxxxxxxxxxxxxxxxx, unit management did not resolve 14 financial
       differences totaling $2,778. The supervisor maintained a log of AICs 247/647
       transactions; however, she did not resolve the differences. This condition was
       attributable to insufficient management oversight. An April 2008 FCS review
       identified the same issue.

      At the xxxxxxxxxxxxxx, management did not resolve 91 financial differences
       totaling $5,308. In addition, the xxxxxxxxxxxxxxxxxxxxx that reports to the unit
       did not resolve financial differences for six transactions totaling $5,356. The
       acting supervisor stated she took over financial differences after the former
       closeout employee retired in July 2009 and had not received formal training.

      Management at the xxxxxxxxxxxx did not resolve eight financial differences
       totaling $601. The postmaster stated that she did not fully understand the
       requirement to monitor and clear these items because she had no formal
       financial training.

Employee Items

Two units did not always follow procedures for employee items. The units did not
monitor and clear employee items totaling $717. Postal Service policy states at least
once a month, the postmaster, manager, supervisor, or designated employee must
reconcile employee items balances.17

      At xxxxxxxxxxxxxxxxxx there were two employee items totaling $604 that were
       not removed.18 One item of $320 was for an employee salary advance, and
       another item for $284 related to a stamp credit shortage. The supervisor stated
       she did not have time to clear outstanding employee items at this unit because


16
   F-101, Sections 8-1.2 and 8-6.2.
17
   F-101, Section 15-1.3.
18
   We noted a unit reserve stock posting error on the Employee Items Report totaling $86,272 at xxxxxxxxxxxxxxxxx
prior to our audit. This posting error was resolved during the audit and was not reportable.


                                                        10
Capital District Financial Risk Audit                                                                  FF-AR-10-075



          she assigned priority to her other units’ outstanding items. An April 2008 FCS
          review identified the same issue.

        At the xxxxxxxxxxxx, the unit had five employee items related to employee cash
         shortages, totaling $113, one of which originated in May 2005. The postmaster
         stated she did not know how to clear employee items.

Cash, Stamp, and Money Order Accountabilities and CPU

Management at all three units did not adhere to controls and procedures over cash and
stamp accountability and money orders. Also, one unit did not follow prescribed
procedures for the CPU. We found the following:

        Two units exceeded unit cash retained over the authorized limit by $406.19
         Postal Service policy states a PRU may increase the amount of the unit cash
         reserve by documenting any change from the existing cash reserve amount on
         the Cash Retained/Unit Cash List with justification to the district finance
         manager.20

          The xxxxxxxxxxxxxxxxx exceeded the limit by $102. The supervisor stated
           she was unaware the unit had a cash retained limit or needed a limit
           authorization letter from the district. An April 2008 FCS review identified the
           same issue.

          The xxxxxxxxxxxx exceeded the limit by $304. The postmaster stated she
           was unaware that the unit was over the limit and of the requirement to send a
           letter to the district requesting an increase in the limit.

        Two units exceeded total office stamp accountability over the authorized limit by
         $1,416,752. According to policy, the stamp stock limit for a period is the total
         sales reported in AIC 852 from same period last year (SPLY).21

          As of August 3, 2009, the xxxxxxxxxxxxxx exceeded the limit by $343,012.22
           The excess stamp stock increased to $1,120,841 as of September 27, 2009.23
           The manager, Customer Service Operations, stated this condition occurred
           due to the failure to order within thresholds, reduce automatic shipments, and
           redeem off-sale stamp stock for destruction quarterly.24




19
   Capital District authorized xxxxxxxxxxxxxxxxx and xxxxxxxxxxxx to retain $700.
20
   F-101, Section 13-8.1.2.
21
   F-101, Section 11-3.4.
22
   The xxxxxxxxxxxxxx total office stock limit was $97,614.
23
   This condition is discussed in detail in the second finding.
24
   Off-sale stamp stock is the items of stamps that are removed from saleable inventory as instructed by
headquarters.


                                                         11
Capital District Financial Risk Audit                                              FF-AR-10-075



          The xxxxxxxxxxxx exceeded the limit by $295,911.25 The postmaster stated
           this occurred due to her insufficient knowledge of the policy.

        The xxxxxxxxxxxx exceeded retail floor stock by 23,092.26 Postal Service policy
         states that management must limit the retail floor stock to a 2-week level as
         determined by stamp sales for the SPLY.27 The postmaster was aware of the
         requirement and stated she wanted to provide sufficient stock to prevent making
         frequent trips to the unit to resupply stock.

        xxxxxxxxxxxxxxxxx had a shortage of $3,943 in the unit reserve stamp
         accountability. Management stated that the shortage may have been due to
         posting errors from a prior count and did not initiate action to collect the shortage.

        The xxxxxxxxxxxx did not account for all money orders. Specifically, we
         identified 332 money orders, valued at $132,800, that were not entered into the
         POS system.28 These money orders were found in a locked safe. Postal Service
         policy requires management to maintain an accurate inventory of all accountable
         paper within the retail unit.29 The postmaster stated she was unaware of the
         existence of the money orders because they were hidden under paperwork.

        The xxxxxxxxxxxxxx did not obtain and review daily PS Forms 1412 from the
         xxxxxxxxxxxxxxxxxxxxx for which it monitors. This condition occurred due to
         insufficient management oversight. Postal Service policy requires CPUs to
         submit daily PS Forms 1412 with the required supporting documents to the host
         PO. Policy also requires the host PO postmaster or designated employee to
         coordinate with CPU personnel to ensure the daily receipt of a PS Form 1412.
         Further, policy also requires that the PS Form 1412 be verified.30

Master Trust Accounts

Management at two units did not always reconcile master trust accounts, leading to
out-of-balance conditions totaling $1,716. Postal Service policy requires unit managers
review and reconcile customer trust accounts monthly.31

      The xxxxxxxxxxxx postmaster stated she was unaware that a negative $156
       balance existed, because she thought the unit did not have any trust accounts.
       We believe this condition occurred due to insufficient management oversight at
       the unit level.

      The xxxxxxxxxxxxxx acting supervisor and manager, Customer Service
       Operations, stated they were unaware that a negative $1,560 balance existed,
25
   The xxxxxxxxxxxx total office stock limit was $57,761.
26
   The xxxxxxxxxxxx retail floor stock limit was $9,625.
27
   F-101, Section 13-8.1.
28
   For reporting purposes, the money orders were valued at $400 each.
29
   F-101, Section 11-3.1.
30
   F-101, Section 5-7.2.
31
   F-101, Section 2-4.3.


                                                       12
Capital District Financial Risk Audit                                                              FF-AR-10-075



         because they thought the unit did not have any trust accounts. We noted this
         issue started in November 2007 and believe this also occurred due to
         insufficient management oversight at the unit level. During our audit, the unit
         resolved the issue with the district finance office.

See Table A for a summary of findings by unit.

Excess Stamp Stock at xxxxxxxxxxxxxx Carries Increased Risk

The district, with the concurrence of the area office, allowed xxxxxxxxxxxxxx,
xxxxxxxxxxxxxx to designate two PRUs as receiving units of excess stamp stock
transferred from other units in Washington, DC. The xxxxxxxxxxxxxx was designated
as one of the receiving units. We identified stock transfers from 10 units between
March 16 and August 1, 2009, totaling $617,865 to the xxxxxxxxxxxxxx.32 As a result,
on August 3, 2009, the xxxxxxxxxxxxxx exceeded its authorized stamp stock limit by
$343,012.

According to policy, the stamp stock limit for a period is the total sales reported in AIC
852, Total Stamp Accountability Sales, from the SPLY.33 We did not review the amount
of excess stamp stock that was transferred to xxxxxxxxxxxxxxxxxx, the other receiving
unit. The district finance manager stated this condition occurred because the SSC that
services four districts in the metropolitan Washington, DC, area did not accept saleable
stamps. The area accounting manager stated that all four local districts in the area had
excess stamp stock. She also stated that this issue was unique to these districts and
brought to the attention of appropriate officials in headquarters. As a result, the high
level of excess stamp stock at the designated receiving units carries increased risk of
loss or misappropriation of accountable items. The following table identifies the
magnitude of excess stamp stock maintained.

                                                     Excess Stamp Stock Per the
      Name of Stamp Stock                            Enterprise Data Warehouse
        Receiving Units
                                            August 3, 2009               September 27, 2009
     xxxxxxxxxxxxxx                                $343,012                        $1,120,841
     xxxxxxxxxxxxxxxxxx34                         1,023,887                                 0
               Total                             $1,366,899                        $1,120,841

In September 2009, xxxxxxxxxxxxxxxxxx transferred its excess stamp stock to the
xxxxxxxxxxxxxx. As of September 27, 2009, xxxxxxxxxxxxxxxx excess stamp stock
increased to $1,120,841. The area finance manager stated this was a temporary
condition that enabled the district to minimize risk. He also stated that the SSC would
begin accepting saleable stamp stock from units in early calendar year 2010.


32
   The units transferred saleable stock to xxxxxxxxxxxxxx to reduce total office accountability.
33
   F-101, Section 11-3.4, July 2009.
34
   We did not audit the xxxxxxxxxxxxxxxxxx. However, we obtained this information from district management and
from information contained in the EDW.


                                                       13
Capital District Financial Risk Audit                               FF-AR-10-075



See Table A on the following page for the summary of the finding.




                                          14
Capital District Financial Risk Audit                                                                                                               FF-AR-10-075



                                                TABLE A: SUMMARY OF AUDIT FINDINGS
                     This table presents the issues identified at the three sites judgmentally selected for audit.




                                                                              xxxxxxxxx

                                                                                          Number of
                                                         xxxxxxxx



                                                                    Xxxxxxx
                                                                    xxxxxxx
           Internal Control Not Implemented                                                                        Specific Actions Required




                                                                                          units
                                                         xxx
                                                                               Refunds
             Maintain proper supporting
       1                                                                         X            1       Maintain documentation for refunds.
             documentation.
             Follow the procedures pertaining to
                                                                                                      Follow proper procedure for nonpostal revenue refunds
       2     miscellaneous nonpostal revenue               X                                  1
                                                                                                      in accordance with Postal Service policy.
             refunds.
             Certify destruction of postage affixed on
                                                                                                      Certify PS Form 3533 in accordance with Postal Service
       3     BRM pieces or metered stamps on PS            X                                  1
                                                                                                      policy.
             Form 3533.
                                                               Miscellaneous Expenses
             Consistently monitor and resolve                                    Research and resolve all outstanding financial
       4                                                   X     X     X     3
             financial differences.                                              differences in accordance with Postal Service policy.
                                                                   Employee Items
                                                                                 Research and resolve outstanding employee items in
       5     Monitor and clear employee items.                   X     X     2
                                                                                 accordance with Postal Service policy.
                                                            Cash and Stamp Accountability
             Adhere to the authorized cash retained                              Reduce the cash retained to the limit established by
       6                                                         X     X    2
             limit.                                                              Postal Service policy.
                                                                                 Reduce the total stamp stock to the limit established by
       7     Adhere to total office stamp stock limit.     X           X    2
                                                                                 Postal Service policy.
             Maintain retail floor stamp stock within                            Reduce retail floor stock to the limit established by
       8                                                               X    1
             limits.                                                             Postal Service policy.
      9      Account for money orders in POS.                          X    1    Account for all money orders, as required.
      10     Obtain PS Forms 1412 from CPU.                X                1    Obtain and review the PS Forms 1412 as required.
                                                                Master Trust Accounts
             Reconcile the Accounting Data Mart                                  Research and reconcile the Accounting Data Mart
      11                                                   X           X     2
             master trust account balances.                                      master trust account balances, as required.



                                                                              15
Capital District Financial Risk Audit                                                                               FF-AR-10-075



                                 APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY


                                        xxxxxxxxxxxxxx                  xxxxxxxxxxxxxxxxx                 xxxxxxxxxxxx

       Accountability              Shortages       Overages         Shortages       Overages        Shortages       Overages
 Unit Reserve Stock                         $0           $3,789          $3,943                $0              $0        $24,386

 Unit Cash Reserve                             0               0                9              0                0              0

 Total Per Unit                             $0           $3,789          $3,952                $0              $0        $24,386
                                                   Shortages                                        Overages
     Total For All Units
                                                    $3,952                                          $28,175




                                                                   16
Capital District Financial Risk Audit                                                                 FF-AR-10-075



     APPENDIX D: SUMMARY OF MONETARY AND NON-MONETARY IMPACTS

                                             Monetary Impacts

This table presents the monetary impact identified during the audits of the three units,
rounded to the nearest dollar.

                                                                             Questioned Costs
Finding No.
                            Finding Description                      Supported            Unsupported
 in Table A
                                                                    Recoverable35        Unrecoverable36
                                             xxxxxxxxxxxxxx
      4         Unresolved financial differences                                   $0               $10,664
                Negative trust account balances not
     11                                                                             0                  1,560
                monitored
                                         xxxxxxxxxxxxxxxxx
Appendix C      Unit reserve stock shortage                                    3,943                        0
      4         Unresolved financial differences                                    0                  2,778
      5         Unmonitored employee items                                        604                       0
                                              xxxxxxxxxxxx
      1         Unsupported refunds                                                 0                    171
      4         Unresolved financial differences                                    0                    601
      5         Unmonitored employee items                                        113                       0
                          Subtotals                                           $4,660                $15,774
                            Total                                                  $20,434




35
  Recoverable costs that are unnecessary, unreasonable or an alleged violation of laws or regulations.
36
  Costs that are unnecessary, unreasonable or an alleged violation of law or regulation. These costs are also not
supported by adequate documentation.


                                                         17
Capital District Financial Risk Audit                                                                FF-AR-10-075



                                         Non-Monetary Impacts

This table presents the non-monetary impact identified during the audits of the three
units, rounded to the nearest dollar.

                                                     By Unit

                                                                 Safeguarding Assets37
      Finding No.
                           Finding Description                                  Accountable
       in Table A                                         Assets at Risk
                                                                               Items at Risk
                                               xxxxxxxxxxxxxx
                       Did not certify destruction of
             3         postage affixed on BRM                     $173,522                   $0
                       pieces or metered stamps
             7         Excess stamp stock                                        0                 1,120,841
                                           xxxxxxxxxxxxxxxxx
                       Unit cash retained exceeded
             6                                                                 102                          0
                       authorized limit
                                              xxxxxxxxxxxx
                       Unit cash retained exceeded
             6                                                                 304                          0
                       authorized limit
             7         Excess stamp stock                                        0                   295,911
             9         Unaccounted money orders                                  0                   132,800
                       Trust account balances not
             11                                                                156                          0
                       reconciled
                         Subtotals                                       $174,084                $1,549,552
                            Total                                             $1,723,636



                                                   By Finding


                                             Safeguarding Assets


     Finding 1 (Page 2)                                                                             $602,795

     Finding 2 (Page 3)                                                                            1,120,841
     Total                                                                                       $1,723,636




37
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                        18
Capital District Financial Risk Audit                        FF-AR-10-075



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                        19
Capital District Financial Risk Audit        FF-AR-10-075




                                        20
Capital District Financial Risk Audit        FF-AR-10-075




                                        21
Capital District Financial Risk Audit        FF-AR-10-075




                                        22
Capital District Financial Risk Audit        FF-AR-10-075




                                        23
Capital District Financial Risk Audit        FF-AR-10-075




                                        24
Capital District Financial Risk Audit        FF-AR-10-075




                                        25
Capital District Financial Risk Audit        FF-AR-10-075




                                        26
